               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Residential Customer Service
                 Experiences

                       Audit Report




                                              March 18, 2013

Report Number MS-AR-13-005
                                                                            March 18, 2013

                                             Residential Customer Service Experiences

                                                           Report Number MS-AR-13-005




BACKGROUND:
The U.S. Postal Service’s ability to            responses to the actual location of the
facilitate positive experiences for its         recipient's experience rather than the
customers and enhance their                     recipient's mailing address, as they may
perceptions of the Postal Service is            differ. In addition, the Postal Service
critical to growing revenue at a time           would benefit from measuring customer
when customers have many service                experiences at alternate access
options available from competing                channels such as self-service kiosks, as
sources. Residential customers                  use of these channels has grown
represent a crucial component of the            significantly.
Postal Service's customer base.
                                                The Postal Service has taken positive
The Postal Service’s Consumer and               actions to improve residential customer
Industry Affairs Office is responsible for      service experiences; however,
monitoring, analyzing, and improving            additional attention is needed to ensure
customer service experiences. It collects       the agency implements corrective
data on customer service experiences            actions promptly and its Customer
and public perceptions via the Customer         Experience Measurement goals are
Experience Measurement survey, which            met. It is also important that the Postal
is sent to random residential customers         Service monitors residential customer
throughout the country. The postmaster          experiences as it implements
general stated that a core business             operational changes that may impact
strategy is to improve the service              those experiences.
experience of its customers.
                                                WHAT THE OIG RECOMMENDED:
Our objective was to evaluate the Postal        We recommended the Postal Service
Service’s actions for improving and             update the Customer Experience
measuring the service experience of its         Measurement survey to identify the
residential customers.                          location of the recipient’s experience,
                                                measure experiences at other access
WHAT THE OIG FOUND:                             channels, develop a strategy for
The Postal Service’s actions for                implementing corrective actions in a
measuring and improving the service             timely and responsive manner, and
experiences of its residential customers        ensure monitoring of residential
are sound, but could be enhanced.               customer experiences as operational
Specifically, management could                  changes are implemented.
enhance the Customer Experience
Measurement survey by linking                   Link to review the entire report
March 18, 2013

MEMORANDUM FOR:            MAURA ROBINSON
                           VICE PRESIDENT, CONSUMER AND
                           INDUSTRY AFFAIRS




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Residential Customer Service
                           Experiences (Report Number MS-AR-13-005)

This report presents the results of our audit of Residential Customer Service
Experiences (Project Number 12RG033MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachments

cc: Corporate Audit and Response Management
Residential Customer Service Experiences                                                                           MS-AR-13-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Customer Experience Measurement Enhancements ...................................................... 3

Implementing Initiatives ................................................................................................... 4

Future Considerations ..................................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Management's Comments ........................................................................ 12
Residential Customer Service Experiences                                                             MS-AR-13-005



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Residential
Customer Service Experiences (Project Number 12RG033MS000). Our objective was to
evaluate the Postal Service’s actions for measuring and improving the service
experience of its residential customers. This self-initiated audit addresses strategic risk.

Postal Service customers access Postal Service products and services across a wide
range of channels and touch points, including the carrier, retail window, and the Internet
via usps.com. The Postal Service’s ability to facilitate positive customer experiences
and enhance customer perceptions of the Postal Service are critical to growing revenue
at a time when current and prospective customers have an increasing number of
alternative service options available.

The Postal Service’s Consumer and Industry Affairs Office is tasked with monitoring,
analyzing, and improving customer service experiences. To help carry out these
responsibilities, the Postal Service has contracted with a major research corporation1 to
develop the Customer Experience Measurement (CEM) system. The CEM system uses
random surveys the contractor sends to residential customers 2 nationwide (about
2.1 million annually) asking about their most recent experiences sending and receiving
mail, visiting post offices, and contacting Postal Service personnel. The contractor is
responsible for distributing the survey and collecting, inputting, analyzing, and
presenting the results to the Postal Service. This includes providing insight on
customers' perceptions of the Postal Service’s reputation and performance, determining
what experiences most impact overall customer relationships, and identifying gaps
where customer expectations are not being met. The Postal Service takes appropriate
action based on these results.

The Postal Service has taken action emphasizing the importance of positive customer
experiences and has included a specific initiative on improving customer experiences as
part of its Delivering Results, Innovation, Value and Efficiency (DRIVE) program.3 As
part of this specific initiative, the Postal Service has focused on increasing CEM scores
and understanding, measuring, and improving customer experience across all channels
or touch points. While the Consumer and Industry Affairs group is DRIVE'S 'Initiative
Lead,' other groups, such as Operations and Corporate Communications, are also
involved. Consumer and Industry Affairs has implemented action targeted at improving
the experiences of all of its customers, including recently developing a program called




1
  The Postal Service spent more than $10 million on this contract from April 2009 to March 2012 and almost
 $4 million from April 2012 to March 2013.
2
  CEM surveys are sent to residential and small business customers. For the purposes of this review, we are focusing
on the survey and results for the residential customer segment.
3
  The DRIVE program focuses on helping the Postal Service meet its performance and financial goals.
                                                          1
Residential Customer Service Experiences                                                               MS-AR-13-005




Customer Essentials, which incorporates four basic principles:

   Telephone Courtesy – targets local post offices and focuses on a basic contact
    point, the telephone. The initiative reminds every employee about the behavior that
    customers expect when doing business with the Postal Service.

   It Begins with a Smile – targets the retail counters with the intent of having
    employees begin every customer interaction in a friendly and courteous manner to
    let customers know the Postal Service wants to help them. Employees play a key
    role in the success of any interaction based on how they greet and thank customers.

   Delivery Done Right – targets delivery and emphasizes that all employees are
    responsible for delivering the mail safely and accurately and making sure it is
    scanned when appropriate. Customers expect the Postal Service to deliver mail
    correctly to improve their confidence and overall experiences.

   We Value Your Business – targets commercial customers and focuses on the
    necessity of business mail entry employees providing accurate information about
    Postal Service products, services, and regulations to customers preparing to send
    mail.

The extent to which customers are receiving positive service experiences is a key
component of the public’s overall perception of the Postal Service. See Appendix A for
additional information about this audit.

Conclusion

While the Postal Service’s actions for measuring and improving the service experiences
of its residential customers are sound, additional actions could enhance these efforts.
The CEM survey is a valuable method for collecting information, is statistically valid, and
the response rate is considered very good compared to the survey response rate of
other organizations. However, the Postal Service could better understand and enhance
the measurement of residential customers' service experiences by linking responses to
the actual location where the recipient’s experience took place and obtaining data on
experiences at alternate retail access channels, including self-service kiosks4 and
Contract Postal Units (CPU).5

The Postal Service has taken positive action to improve residential customer service
experiences. According to Postal Service management, the Customer Essentials
Program led to improved scores for all key CEM categories and for specific customer


4
  Self-service kiosks (formally automated postal centers) enable customers to perform a variety of transactions
conducted at full-service retail counters.
5
  Post offices that provide a range of services beyond stamps and are located inside retail establishments and
operated by the retailer's employees.

                                                          2
Residential Customer Service Experiences                                       MS-AR-13-005



essentials metrics during fiscal year (FY) 2012. Additional attention, however, is needed
to ensure that:

   Initiatives are implemented promptly — corrective action was not taken in a timely
    and responsive manner to address low residential customer experience scores.

   CEM goals are met — CEM scores for each key residential CEM category were
    below target scores in FYs 2011 and 2012.

The Postal Service must continue to enhance efforts to measure and improve
residential customer experiences. These efforts will become increasingly important as
the Postal Service implements operational changes regarding its financial challenges
that might impact those customer experiences.

Customer Experience Measurement Enhancements

The Postal Service’s CEM system for measuring the service experience of residential
customers is sound; however, enhancements could improve the effectiveness of its
measurement processes. The CEM survey collects valuable information about multiple
postal services (for example, receiving and sending mail, visiting post offices, and
contacting Postal Service officials) and is statistically valid. In addition, the CEM has a
15 percent response rate — a rate the contractor considered to be very good for similar
sized organizations. This response rate might indicate that, generally, customers have a
positive view of the survey and value the opportunity to provide feedback to the Postal
Service on their service experiences. However, the Postal Service could better
understand and enhance the measurement of residential customers' service
experiences by:

   Linking CEM Data to Where the Customer Experience Took Place. The
    Postal Service currently links CEM residential survey results to the recipient’s
    mailing address and the corresponding Postal Service facility (for example, the
    Post Office and district office responsible for serving the customer’s residential
    address). However, customer experiences often occur at a Postal Service location
    other than the postal facility servicing a recipient's mailing address, such as at a
    Post Office close to the recipient's work place or a shopping center. In these cases,
    CEM scores may be somewhat misleading because they would not account for the
    different locations. We reviewed the practices of leading organizations and found
    that when they collect customer experience information, they typically try to link the
    experiences to the location where the experiences occurred. This allows these
    organizations to respond accordingly by recognizing well-performing locations or
    implementing improvements at lower-performing locations; therefore, the
    Postal Service’s CEM results could be more accurate if the survey asked recipients
    to identify where their most recent experience took place. This would allow the
    Postal Service to more accurately link the reported customer service experience to
    the actual Postal Service location where the service was provided.

                                             3
Residential Customer Service Experiences                                                              MS-AR-13-005




    Collecting Data on Experiences at Alternate Access Channels. The Postal Service
     continues to promote the use of alternate access channels, such as self-service
     kiosks, CPUs, and village post offices (VPO)6 for its customers. The Postal Service
     recognized the importance of measuring the experiences of customers when using
     these alternatives and has included “understanding and measuring the customer
     experience across all channels or touch points” as a key action in its DRIVE
     initiative for improving customer experience. This action is consistent with the
     practices of leading organizations in that they try to collect customer experience
     information from all access points. However, Postal Service efforts to collect such
     information at alternative access points have been tabled and the following issues
     raised:

    o    Self-service kiosks (formally automated postal centers) — the response rate for
         customer experience surveys may be very low and its results may lack statistical
         validity. Postal Service officials stated that software changes would be required
         to conduct the surveys and their implementation would need funding.

    o CPUs — software interfaces, updating, and funding issues prevent the
      Postal Service from conducting event-based customer experience surveys.

    o VPOs — survey responses might lack statistical validity because there are so
      few of them since the VPO program just began.

While we recognize the challenges the Postal Service faces in gathering customer
information from alternative access channels, we believe it should evaluate options to
overcome such barriers in attempting to move more transactions to alternative access
channels. Otherwise, the Postal Service may miss the opportunity to collect critical
information on all of its customers' experiences.

Implementing Initiatives

Additional attention is needed to (1) promote more timely responses to low customer
experience scores and (2) continue improving CEM scores to reach its customer
experience goals. The Postal Service started the Customer Essentials Program in
FY 2012 to improve customer experiences, and Postal Service officials stated they
believe this program led to improved CEM scores across all key CEM categories (see
Table 1). Furthermore, Postal Service officials stated that key metrics for select
Customer Essentials categories — Telephone Courtesy, It Begins With a Smile-Clerks,
and It Begins with a Smile-Carriers — increased gradually throughout FY 2012.




6
  A new retail offering tailored to meet the needs of small communities without a regular Post Office and provide
customers with greater access to select products and services because they are housed in businesses that have
longer hours, weekend service, and convenient locations.

                                                          4
Residential Customer Service Experiences                                                            MS-AR-13-005



                                    Table 1: Residential Customer Experience
                                        Measurement Scores and Goals7


           Experience Category8                    FY 2011             FY 2012             Goals9

           Receiving Experience                              90.34           91.21               94.00

           Sending Experience                                89.97           90.85               94.00

           Post Office Experience                            83.27           84.96               87.00

           Contact Experience                                60.93           63.10               65.00

           Residential Experience                            81.13           82.53               85.00

           Overall Perception                                87.16           88.38               93.00
         Source: U.S. Postal Service Office of Inspector General (OIG) analysis of data and Postal Service
         CEM Dashboard.

While we are encouraged by the results of the Customer Essentials Program, we
believe additional attention is warranted to ensure that corrective action is taken in a
timely manner and that the Postal Service strives to reach its CEM goals. For example,
we found that, although scores for a key CEM category — Contact Scores — have been
low since FY 2010, the Postal Service did not take corrective action in FYs 2010 and
2011. Consumer and Industry Affairs management recognized that actions were not
taken in a timely and responsive manner and attributed this inactivity in part to a lack of
organizational focus. Officials also stated that resources were used to analyze CEM
data before creating the Customer Essentials strategy. We recognize that analysis is
time-consuming, but are concerned that inaction or delays in setting improvements may
alienate customers and drive them to alternatives.




7
  The scores and goals the Postal Service uses reflect the percentage of recipients who answered “Strongly Agree”
or “Somewhat Agree” and “Very Satisfied” or “Mostly Satisfied” on the CEM survey.
8
  The categories the Postal Service determined are most important to customer experiences and use to measure
residential CEM scores. Generally speaking, these categories represent the customer’s satisfaction regarding the
following: Receiving – Receiving Letters or Packages; Sending — Sending Letters or Packages; Post Office —
Visiting the Post Office; Contact — Contacting the Postal Service; Residential Experience – Overall score of
Receiving, Sending, Post Office, and Contact experiences; and Overall Perception — Overall satisfaction with the
Postal Service.
9
  The targeted scores percentages for residential CEM determined by the Postal Service.

                                                         5
Residential Customer Service Experiences                                                               MS-AR-13-005




We also noted the following which indicates further attention is needed in this area:

    Each of the key FY 2011 and 2012 CEM categories were below the targeted goal
     (see Table 1). Postal Service officials attributed this performance, in part, to the
     following:

     o Customer service issues – for example, customers not receiving courteous or
       friendly service from window clerks at the Post Office or on the telephone.

     o Service limitations and operational issues – for example, customers report
       unfavorable experiences when mail tracking problems cannot be resolved
       because the Postal Service does not have total mail tracking visibility.

     Consumer and Industry Affairs officials anticipate that the Customer Essentials
     Program will facilitate the changes needed to help reach these targets. In addition,
     they recognize that other parts of the organization play a key role in driving CEM
     improvements. For example, carriers and processing staff are critical to providing
     timely and accurate mail delivery service and postmasters and retail clerks are key
     to providing high-quality, customer-friendly retail service.

    Certain Postal Service districts continue to have low CEM scores. In FYs 2011 and
     2012, the Triboro, New York, Los Angeles, and Chicago districts' scores remained
     well below average and at the lower end of the CEM residential score rankings.
     While some of these districts have made recent improvements (for example, the
     Chicago District recorded the fifth largest improvement in its Overall Residential
     Customer Service Experience score between FYs 2011 and 2012), the OIG recently
     identified these districts as four of five districts ranked 'most at risk' from a retail
     customer service risk standpoint.10

The Postal Service must quickly review CEM data and take action in a more timely and
responsive manner to begin improving residential customer experiences, especially in
those districts with low CEM scores.

Future Considerations

The relationship between the Postal Service and its customers continues to evolve.
Customers have increasing access to other mailing and communication alternatives and
their service expectations continue to change (for example, some prefer free or low-cost
delivery, while others prefer next day delivery). Furthermore, while the Postal Service
improves customer service and expands service options, it is implementing initiatives
such as reduced Post Office hours or changes to mail delivery and collection schedules
to address larger financial challenges that might impact customer experiences.

10
  This information was included in our retail customer service Performance Analysis and Risk Indicators Scans
(PARIS) Model that summarizes data analyzed by the OIG to identify Postal Service districts that indicate high risk for
developing customer service issues.

                                                          6
Residential Customer Service Experiences                                      MS-AR-13-005




The Postal Service must continue to enhance efforts to measure and improve
residential customers' experiences. These efforts will become increasingly important as
the Postal Service implements operational changes regarding its financial challenges
that might impact those customer experiences. It will be important not only to measure
and analyze customer services at those immediate locations, but also at surrounding
locations and access channels that could be affected by these changes.

Recommendations

We recommend the vice president, Consumer and Industry Affairs:

1. Update the residential Customer Experience Measurement survey to allow
   customers to provide more definitive location identifiers (for example, Post Office™
   name, city, and ZIP Code) that relate to their experiences.

2. Develop a process to collect and analyze residential customer experience
   information from other access channels.

3. Develop a strategy to design and implement corrective actions in a more timely and
   responsive manner when poor customer service experience scores are identified.

4. Ensure that mechanisms are developed and implemented to track residential
   customer experiences as key operational initiatives are taken to improve the
   Postal Service’s financial condition.

Management’s Comments

Management agreed with the findings and recommendations. Regarding
recommendation 1, management stated they are currently reassessing all CEM survey
tools and will evaluate the proposed survey change to add specific customer service
time and location data by March 2014. Regarding recommendation 2, management
stated they will assess the feasibility of developing cost effective and actionable data
across all postal channels by March 2014.

Regarding recommendation 3, management stated they will build upon the foundation
of the Customer Experience Essentials program and develop a strategy to design and
implement actionable programs to improve the customer experience by December
2013. Regarding recommendation 4, management stated they will implement a program
to generate data that will identify and resolve customer concerns associated with
operational changes by December 2013.

See Appendix B for management’s comments, in their entirety.




                                            7
Residential Customer Service Experiences                                   MS-AR-13-005




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           8
Residential Customer Service Experiences                                       MS-AR-13-005




                            Appendix A: Additional Information

Background

Postal Service customers access its products and services across a wide range of
channels and touch points, including the carrier, retail window, usps.com, CPUs,
self-service kiosks, and 1-800-ASK-USPS. The Postal Service’s ability to facilitate
positive customer experiences and enhance customers' perceptions of the Postal
Service are critical to growing revenue at a time when current and prospective
customers have an increasing number of alternative service options available.

The Postal Service’s Consumer and Industry Affairs Office is tasked with monitoring,
analyzing, and improving customer service experiences. To help carry out these
responsibilities, the Postal Service has contracted with a major research corporation, to
develop the CEM system. The CEM system uses random surveys the contractor sends
to residential customers nationwide (about 2.1 million annually). The survey questions
customers about their most recent experiences sending and receiving mail, visiting post
offices, and contacting Postal Service personnel. The contractor is responsible for
distributing the survey and collecting, inputting, analyzing, and presenting the results to
the Postal Service. This includes providing insights on customers' perception, reputation
and performance; determining what experiences most impact overall customer
relationships (for example, if customers have long wait times in line, they likely have a
poor overall retail experience), and identifying gaps where customer expectations are
not being met. The Postal Service takes action based on these results to emphasize the
importance of positive customer experiences.

The postmaster general stated that a core business strategy is to improve the customer
experience. He further stated, “I want every experience to be a positive experience.
Satisfied customers come back.” The Postal Service has included a specific initiative on
improving customer experiences as part of its DRIVE program. As part of this specific
initiative, the Postal Service has focused on increasing CEM scores and understanding,
measuring, and improving customer experience across all channels or touch points. For
example, one DRIVE metric states a goal of 82 percent positive responses for Overall
Customer Experience scores in CEM for residential and small business customers.

While the Consumer and Industry Affairs group is the 'Initiative Lead' for the customer
experience DRIVE initiative, other groups, such as Operations and Corporate
Communications, are also involved. Consumer and Industry Affairs implemented
actions targeted at improving customer experience, including recently developing the
Customer Essentials Program.




                                             9
Residential Customer Service Experiences                                      MS-AR-13-005




Objective, Scope, and Methodology

Our objective was to evaluate the Postal Service’s actions for improving and measuring
the customer service experience of its residential customers. To accomplish our
objective, we:

   Reviewed CEM reports, goals, and processes.

   Reviewed CEM system data for collecting, compiling, and scoring residential
    customer experience surveys and analyzed CEM scores for FYs 2011 and 2012.

   Interviewed headquarters Consumer and Industry Affairs, Customer Engagement
    and Strategic Alignment officials, and district officials.

   Analyzed CEM data, metrics, and results, as well as other related data.

   Reviewed other customer satisfaction data, surveys, and reports that other
    companies conducted on the Postal Service.

   Reviewed Postal Service CEM contracts and related documents.

   Reviewed related OIG reports.

We conducted this performance audit from September 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on February 7, 2013, and included
their comments where appropriate.

We assessed the reliability of CEM data by validating published residential survey
scores for accuracy using 100 percent of system detail records for the period reviewed.
We interviewed agency officials knowledgeable about the data and determined the data
were sufficiently reliable for the purposes of this report.




                                           10
     Residential Customer Service Experiences                                        MS-AR-13-005




     Prior Audit Coverage

                                                                                 Monetary
                                                                                Impact (in
          Report Title              Report Number Final Report Date              millions)
Postal Service Retail Facilities      CI-MA-12-002            9/17/2012             None
Optimization Options
Report Results:
The Postal Service’s plan to preserve post offices helps balance service with cost-saving
opportunities by matching retail hours to workload. However, there would be customer
inconveniences, such as reduced hours of operation, traveling new distances to alternate
retail locations, and access to alternate retail options. The Postal Service plans to explore
other options, such as expanding partnership with local businesses and staggering the
open and close times of surrounding post offices, to mitigate the reduced retail service
hours. The report did not contain any recommendations.

Customer Complaint                   MS-AR-12-007             9/10/2012           $26.4
Resolution Process
Report Results:
The Postal Service is not efficiently and effectively resolving customer complaints.
Specifically, the Postal Service is closing complaints before customers consider their
cases resolved. The Postal Service is not adequately monitoring complaint resolution by
consistently conducting follow-up surveys with customers and quality control reviews.
Postal Service management agreed with our recommendations.




                                                  11
Residential Customer Service Experiences                      MS-AR-13-005



                          Appendix B: Management's Comments




                                           12
Residential Customer Service Experiences        MS-AR-13-005




                                           13
